CERTIFICATE OF SERVICE
I, the undersigned say:
1.

That I am over eighteen ( 18) years of age, a resident of the County of
Sonoma, State of California, and not a party to the within action.

2.

That my business address is 2751 4th Street, PMB #136, Santa Rosa,
CA 95405.

3.

That I am the attorney appointed under the Criminal Justice Act to
represent HECTOR MOLINA for purposes of filing a writ of
certiorari.

4.

That I served the within Motion for Leave to Proceed In Forma
Pauperis on counsel for the respondent and related parties by
enclosing a copy thereof in an envelope, first class postage prepaid,
and depositing the same in the United States mail at Santa Rosa,
California on November 20, 2020 addressed to:

California Attorney General's Office
455 Golden Gate Ave.
Suite 11,000
San Francisco, CA 94102
5.

Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530-0001

That all parties required to be served have been served.

I certify that the foregoing is true and correct.
Executed on this 20th day of November 2020, at Santa Rosa, California.

